)

NO: 20-1007

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER
V.
RRL HOLDING COMPANY OF OHIO, ET AL„ RESPONDENTS

PETITION FOR REHEARING
ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF OHIO
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,965 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 21st day of April, 2021.
Merrilee Stewart
/s/ Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se ofbehalf of
Merrilee Stewart, Petitioner

